No.

FILED
DEC 1 9 2020

IN THE

OFFICE OF THE CLERK
SUPREME COURT ll R

SUPREME COURT OF THE UNITED STATES

•josmuam

— PETITIONER

(Your Name)
vs.

5l7)TE

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
f*

r

/

*

f

)u

yrr/1 [/<

i

'/Stoctv

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

2DM Armory §)n\J(L
(Address)

^

r
/

(City, State, Zip Code)

(Phone Number)

f

!

QUESTION(S) PRESENTED

%

Whu would~hhi VrirkdSkks Dish-id-Court-AVdcfte
D'i-sinchof1 Georgia mitra ckos/vn dhthdou/aks
Gndis'm condficf vSrib 4hat ckcishnofenpSkr
n
L
/Sin
Vni
YinCtPkr <
\

!

r-

'siodnth (drcdi-JtHhrG di CfS/Qn l/lrf
\

•u

\

Unrw

5

1

\
/

O* NO.

iq~35L,S y-toVnMStetisQm+o&AmhBf^
m jn am
\

i

\

i
\

um^t in %}4fH
!

\

/

*

)b7n
A

n

r

A

i

U

\

i

V

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
H/All parties do not appear in the caption of the ease on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

CmrnicShh

toW?' Gw#)n; RfSP^ht

J
RELATED CASES
\

1

jli cJcquJ. Harris J[ a AnHwy Emmie cq

f /

cosAio.

/

garthznu GmrviQ^hl OS bbOU^
Qwofi v. UMMiyQpCbicGjv^1 L

ussup*^

\

i

5n ed ^

(I I4*3 Cl r,
Circuit

c.

r

/VWgos \j. CChd&p
1131)) 135

i

j

t

sT7

s

i

t

i

b

f

n

s

i

A

~)Wi
*

U

rJ

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:
STATE OF GEORGIA, Respondent
GEORGIA STATE BOARD OF WORKERS1 COMPENSATION, Respondent
GEORGIA DEPARTMENT OF ADMINISTRATIVE SERVICES, Respondent
GEORGIA DEPARTMENT OF CORRECTIONS, Respondent

RELATED CASES
Bearden v. Georgia, 461 U.S. 660 (1983)
Cannon v. University of Chicago, 441 U.S. 677 (1979)
Rickey J. Harris III v. Anthony Emanuele and Michael Zetting Case No. 19-3548 (7th Cir. 2020)
(U.S. Court of Appeals 7th Circuit)
Means v. Indep. Life & Acc. Ins. Co. 963 F. Supp. 1131, 1135 (M.D. Ala. 1997)
Sneed v. Pan American Hospital 370 F. App’x 47, 50 (11th Cir. 2010)
Sowinski v. California Air Resources Board Case No. 2019-1558 971 F.3d 1371 (2020) (U.S.
Court of Appeals Federal Circuit)

TABLE OF CONTENTS
OPINIONS

I

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED..................................................................

7

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT/PETITION FOR WRIT OF
CERTIORARI
CONCLUSION

7-//

\t~2t
Z3-V4

IN THE SUPREME COURT OF THE UNITED STATES
JUSTIN LASTER
Petitioner
v.

CIVIL ACTION
APPEAL FILE NO. 20-12575-BB

STATE OF GEORGIA,
GEORGIA STATE BOARD
OF WORKERS’ COMPENSATION,
GEORGIA DEPARTMENT OF
ADMINISTRATIVE SERVICES,
GEORGIA DEPARTMENT OF
CORRECTIONS
Respondents’
APPENDIX
Bearden v. Georgia, 461 U.S. 660 (1983) https://supreme.iustia.com/cases/federal/us/461/660/
Cannon v. University of Chicago, 441 U.S. 677 (1979)
https://supreme.iustia.com/cases/federal/us/441/677/
Rickey J. Harris III v. Anthony Emanuele and Michael Zetting Case No. 19-3548 (7th Cir. 2020)
(U.S. Court of Appeals 7th Circuit) http://media.ca7.uscourts.gov/cgibin/rssExec.pl?Submit=Displav&Path=Y2020/D 10-16/C: 193548:J:PerCuriam:aut:T:npDp:N:2597638:S:0
Means v. Indep. Life & Acc. Ins. Co. 963 F. Supp. 1131, 1135 (M.D. Ala. 1997)
https://law.justia.eom/cases/federal/district-courts/FSupp/963/l 131/1645373/
Official Code for the State of Georgia
Sneed v. Pan American Hospital 370 F. App’x 47, 50 (11th Cir. 2010)
https://docs.iustia.com/cases/federal/appellate-courts/cal 1/10-15530/1116274655
Sowinski v. California Air Resources Board Case No. 2019-1558 971 F.3d 1371 (2020) (U.S.
Court of Appeals Federal Circuit) http://www.cafc.uscourts.gov/sites/default/files/opinionsorders/19-1558, OPINION. 8-21 -2020 1640600.pdf
United States Code 18 U.S. Code § 1001
United States Code 5 U.S. Code § 3331
United States Code 42 U.S. Code § 1983

United States Code 18 U.S. Code § 242
United States Constitution Amendment 14
United States District Judge Leslie A. Gardner Order

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
{{/f'For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] bag been designated for publication but is not yet reported; or,
unpublished.
The opinion of the United States district court appears at Appendix_____ to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
For cases from federal courts:
The dal^on^h^ States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
tf/A^timely petition for rehearing was denied,by the,Umted-States Court of
Appeals on the following date: \\lf\PngWr A 7u?U and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including--------------------- -----(date) on__________________ (date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including---------- '_______ (date) on ______________ (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

IN THE SUPREME COURT OF THE UNITED STATES
JUSTIN EASTER
Petitioner
v.

CIVIL ACTION
APPEAL FILE NO. 20-12575-BB

STATE OF GEORGIA,
GEORGIA STATE BOARD
OF WORKERS’ COMPENSATION,
GEORGIA DEPARTMENT OF
ADMINISTRATIVE SERVICES,
GEORGIA DEPARTMENT OF
CORRECTIONS
Respondents’
JURISDICTION
The United States Court of Appeals for the Eleventh Circuit has jurisdiction of this appeal
because United States Federal Laws were violated by the Appellees’ in this civil action, 42
United States Code § 1983 Civil Action for Deprivation of Rights, Violation of 18 United States
Code § 246 Deprivation of Relief Benefits, Violation of 18 United States Code § 245 Federally
Protected Activities, Violation of 18 United States Code § 241 Conspiracy Against Rights, and
Violation of United States Constitution Amendment XIV (14), and 28 United States Code § 1254
(1) and therefore jurisdiction of this civil action in United States Federal Courts is appropriate
and proper in accordance with United States Federal Law.

IN THE SUPREME COURT OF THE UNITED STATES
JUSTIN LASTER
Petitioner
CIVIL ACTION
APPEAL FILE NO. 20-12575-BB

v.
STATE OF GEORGIA,
GEORGIA STATE BOARD
OF WORKERS’ COMPENSATION,
GEORGIA DEPARTMENT OF
ADMINISTRATIVE SERVICES,
GEORGIA DEPARTMENT OF
CORRECTIONS
Respondents’

CONSTITUTIONAL STATUTORY PROVISIONS INVOLVED
Bearden v. Georgia, 461 U.S. 660 (1983)
Cannon v. University of Chicago, 441 U.S. 677 (1979)
Rickey J. Harris III v. Anthony Emanuele and Michael Zetting Case No. 19-3548 (7th Cir. 2020)
(U.S. Court of Appeals 7th Circuit)
Means v. Indep. Life & Acc. Ins. Co. 963 F. Supp. 1131, 1135 (M.D. Ala. 1997)
Official Code for the State of Georgia
Sneed v. Pan American Hospital 370 F. App’x 47, 50 (11th Cir. 2010)
Sowinski v. California Air Resources Board Case No. 2019-1558 971 F.3d 1371 (2020) (U.S.
Court of Appeals Federal Circuit)
United States Code 18 U.S. Code § 1001
United States Code 5 U.S. Code § 3331
United States Code 42 U.S. Code § 1983
United States Code 18 U.S. Code § 242
United States Constitution Amendment 14
United States District Judge Leslie A. Gardner Order

IN THE SUPREME COURT OF THE UNITED STATES
JUSTIN LASTER
Appellant
CIVIL ACTION
APPEAU FILE NO. 20-12575-BB

v.
STATE OF GEORGIA,
GEORGIA STATE BOARD
OF WORKERS’ COMPENSATION,
GEORGIA DEPARTMENT OF
ADMINISTRATIVE SERVICES,
GEORGIA DEPARTMENT OF
CORRECTIONS
Appellees’

TABLE OF AUTHORITIES CITED
Bearden v. Georgia, 461 U.S. 660 (1983)

u

Cannon v. University of Chicago, 441 U.S. 677 (1979)

V

Rickey J. Harris III v. Anthony Emanuele and Michael Zetting Case No. 19-3548 (7th Cir. 2020)
(U.S. Court of Appeals 7th Circuit) ^3
Means v. Indep. Life & Acc. Ins. Co. 963 F. Supp. 1131, 1135 (M.D. Ala. 1997)
Official Code for the State of Georgia
Sneed v. Pan American Hospital 370 F. App’x 47, 50 (11th Cir. 2010)

Wo

r

Sowinski v. California Air Resources Board Case No. 2019-1558 971 F.3d 1371 (2020) (U.S.
Court of Appeals Federal Circuit) 3
United States Code 18 U. S. Code §1001

)

United States Code 5 U. S. Code § 3 3 31

)

United States Code 42 U.S. Code § 1983

}

United States Code 18 U. S. Code § 242

|

United States Constitution Amendment 14

I

United States District Judge Leslie A. Gardner Order

1J
;

STATEMENT OF THE CASE
This case derived from me being denied the equal and fair treatment given to me by Amendment
14 of the United States Constitution to No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws. The State of Georgia refused to comply, enforce
and adhere to its’ own State Laws when it was in clear and direct violation of its’ Laws, the
Official Code for the State of Georgia, in reference and regarding its’ own Citizens and
Residents, which Deprived me of Equal Protection of the State Of Georgia Laws, the immunities
and privileges of being a Natural Born Citizen of the United States of equal justice. The United
States Court of Appeals Eleventh Circuit has entered a decision in conflict with the decision of
another United States court of appeals on the same important matter; has so far departed from the
accepted and usual course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s supervisory power; and (c) a state court or a
United States court of appeals has decided an important question of federal law that has not been,
but should be, settled by this Court, or has decided an important federal question in a way that
conflicts with relevant decisions of this Court. United States Court of Appeals Eleventh Circuit
Clerk of Court David J. Smith states he Dismissed my Appeal on August 27, 2020, but he dated
a September 4, 2020 letter of Notice that he and the United States Court of Appeals Eleventh
Circuit Dismissed my Appeal, eight (8) days and which the letter was postmarked and received
by the United States Postal Service September 9, 2020, thirteen (13) days which means
September 9, 2020 is the date the United States Court of Appeals Eleventh Circuit Clerk Of
Court had the letter delivered and dropped off at the United States Postal Service, which was
unlawfully, intentional, and deliberate to assure that I had less time to Appeal his Unlawful
Dismissal of my Appeal. The egregious conduct and behavior by a Clerk of Court and United
States Court of Appeals, the Eleventh Circuit has so far departed from the accepted and usual
course of judicial proceedings and therefore needs the Supreme Court of the United States to
correct their abusive and deviation from the normal and accepted usual course of how judicial
proceedings are conducted in a court of law. There are some disputable facts and laws that need
to be reviewed and decided by the United States Supreme Court by the United States Court of
Appeals Eleventh Circuit Clerk Of Court David J. Smith interpretation of the United States
Federal Law. The United States Court of Appeals has decided an important question of federal
law that has not been, but should be, settled by this Court, or has decided an important federal
question in a way that conflicts with relevant decisions of this Court and that question is Should
a Court Official compensated by the United States Government use and abuse the power of their
office and position to divert, disregard, and derelict the law and their sworn duties they took by
their oath of office to do their job fair, impartial, and unbiased pursuant to the Constitution of the
United States and the United States Code. I have evidence I sent my Appendix the first (1st) time
on August 17, 2020 in and with my Appellant Brief of which I tracked with receipt my Appellant
Brief in the United States Mail to the United States Court of Appeals Eleventh Circuit of which

Mr. David J. Smith made false statements saying I did not sent and I failed to send my Appendix
with my Appellant Brief to prosecute my Appeal. Mr. David J. Smith he failed to send my
Appeal of his decision to the United States Supreme Court on September 12, 2020 as I asked
him, but instead filed a Motion to Reinstate my Appeal stating “Opposition to Motion is
Unknown 9193254-1” and states further “Please send in your Appendix so that your Motion can
be acted upon. Your Motion has been filed but will not be considered or acted upon by the Court
pending receipt of the Appendix. If you fail to file the Appendix within FOURTEEN (14) DAYS
from the date of this letter, the Court will determine whether the Motion should be Stricken for
Failure to Comply with the Rules. This may result in your Motion being Returned to you without
Court Action”, this letter you sent me dated September 21, 2020. Mr. David J. Smith he made
false statements on August 27, August 28, September 4, September 21, and October 22, 2020
stating “The Court is in receipt of your Motion to Reinstate. Ffowever, no action will be taken
because Appellant failed to submit the required Appendix. If Appellant chooses to submit the
Appendix, a Motion to Reinstate will also be Required”. I sent my second (2nd) Appendix on
October 1, 2020 with Exhibits and David J. Smith made false statements again saying I failed to
send my required Appendix, which I tracked with receipt my second (2nd) Appendix I sent to the
United States Court of Appeals Eleventh Circuit in the United States Mail. United States District
Court Judge Leslie A. Gardner stated that just because a federal statute has been violated 18
United States Code § 246 Deprivation of Relief Benefits, 18 United States Code § 245 Federally
Protected Activities, 18 United States Code § 241 Conspiracy Against Rights and a person was
harmed does not automatically give rise to a private cause of action in favor of that person, U.S.
Supreme Court case Cannon v. University of Chicago, 441 U.S. 677 (1979) United States
District Court Judge Leslie A. Gardner did not state the facts of this civil action before the
United States Supreme Court, the United States Supreme Court ruled Held: Petitioner may
maintain her lawsuit, despite the absence of any express authorization for it in Title IX. Pp. 441
U. S. 688-717. Pp. 441 U. S. 710-716. (a) Before concluding that Congress intended to make a
remedy available to a special class of litigants, a court must carefully analyze the following four
factors that Cort v. Ash, 422 U. S. 66, identifies as indicative of such an intent: (1) whether the
statute was enacted for the benefit of a special class of which the plaintiff is a member, (2)
whether there is any indication of legislative intent to create a private remedy, (3) whether
implication of such a remedy is consistent with the underlying purposes of the legislative
scheme, and (4) whether implying a federal remedy is inappropriate because the subject matter
involves an area basically of concern to the States. P. 441 U. S. 688. (b) The first factor is
satisfied here since Title IX explicitly confers a benefit on persons discriminated against on the
basis of sex, and petitioner is clearly a member of that class for whose special benefit the statute
was enacted. Pp. 441 U. S. 689-694. (c) As to the second factor, the legislative history of Title IX
rather plainly indicates that Congress intended to create a private cause of action. Title IX was
patterned after Title VI of the Civil Rights Act of 1964, and the drafters of Title IX explicitly
assumed that it would be interpreted and enforced in the same manner as Title VI, which had
already been construed by lower federal courts as creating a private remedy when Title IX was

enacted. Pp. 441 U. S. 694-703. (d) The third factor is satisfied, since implication of a private
remedy will not frustrate the underlying purposes of the legislative scheme but, instead, will
assist in achieving the statutory purpose of providing individual citizens effective protection
against discriminatory practices. Pp. 441 U. S. 703-708. (e) As to the fourth factor, since the
Civil War, the Federal Government and the federal courts have been the primary and powerful
reliances in protecting citizens against invidious discrimination of any sort, including that on the
basis of sex. Moreover, it is the expenditure of federal funds that provides the justification for
this particular statutory prohibition. Pp. 441 U. S. 708-709. (f) Respondents' principal argument
against implying a cause of action under Title IX — that it is unwise to subject admissions
decisions of universities to judicial scrutiny at the behest of disappointed applicants on a case-by­
case basis because this kind of litigation is burdensome, and inevitably will have an adverse
effect on the independence of members of university committees — is without merit. The
congressional majorities that passed Title VI of the Civil Rights Act of 1964 and Title IX
rejected the same argument when advanced by the congressional opponents of the two statutes,
and there is nothing to demonstrate that private Title VI litigation has been so costly or
voluminous that either the academic community or the courts have been unduly burdened, or that
university administrators will be so concerned about the risk of litigation that they will fail to
discharge their important responsibilities in an independent and professional manner. Pp. 441 U.
S. 709-710. (g) Nor is there any merit to respondents' arguments, starting from the premise that
Title IX and Title VI should receive the same construction, that a comparison of Title VI with
other titles of the Civil Rights Act of 1964 demonstrates that Congress created express private
remedies whenever it found them desirable, and that certain excerpts from the legislative history
of Title VI foreclose the implication of a private remedy. The fact that other provisions of a
complex statutory scheme create express remedies has not been accepted as a sufficient reason,
by itself, for refusing to imply an otherwise appropriate remedy under a separate section, and
none of the excerpts from the legislative history cited by respondents evidences any hostility
toward an implied private remedy for terminating the offending discrimination. 559 F.2d 1063,
reversed and remanded. United States District Court Judge Leslie A. Gardner stated that in
regards to HIPAA claims, “It is well established that F1IPAA provides no private right of action”,
that the United States Federal courts “decline to hold that HIPAA creates a private cause of
action”, and “finding no evidence that Congress intended to create a private right of action under
HIPAA” and Your Honor stated Sneed v. Pan American Hospital 370 F. App’x 47, 50 (11th Cir.
2010) and Means v. Indep. Life & Acc. Ins. Co. 963 F. Supp. 1131, 1135 (M.D. Ala. 1997). In
the United States Court of Appeals for the Eleventh Circuit Timothy Sneed v. Pan American
Hospital, the United States Court of Appeals ruled Timothy Sneed pro se appeals the district
court’s order denying as untimely his Federal Rule of Civil Procedure 60(b) motion to vacate or
set aside the district court’s order dismissing Sneed’s 42 U.S.C. § 1983 complaint. After review,
we affirm. The district court denied the Rule 60(b) motion as untimely because it was not filed
within one year of the September 10, 2009 dismissal order. Sneed filed this appeal. II.
DISCUSSION Rule 60(b) permits a district court to “relieve a party or its legal representative

from a final judgment, order, or proceeding for,” among other things, “newly discovered
evidence that, with reasonable diligence, could not have been discovered in time to move for a
new trial under Rule 59(b).” Fed. R. Civ. P. 60(b)(2). A Rule 60(b)(2) motion is an extraordinary
motion, and “the requirements of the rule must be strictly met.” Toole v. Baxter Healthcare
Corp., 235 F.3d 1307, 1316 (11th Cir. 2000). A Rule 60(b)(2) motion must be filed “no more
than a year after the entry of the judgment or order or the date of the proceeding.” Fed. R. Civ. P.
60(c)(1). Here, the district court did not abuse its discretion when it denied Sneed’s Rule
60(b)(2) motion. The district court’s corrected dismissal order was entered on September 1-0,
2009. Sneed did not file his Rule 60(b)(2) motion until October 27, 2010, more than one year
later. Sneed contends that he did not receive a copy of the September 10, 2009 dismissal order
until October 30, 2009 because he was being transferred to a different prison facility. However,
the one-year time period for filing Rule 60(b)(2) motions runs from the entry of the September
10, 2009 judgment or order Sneed’s motion seeks to set aside, not from the time the party
receives actual notice of the judgment or order. See Fed. R. Civ. P. 60(c)(1). And, Sneed admits
he received the order on October 20, 2009, which was well before the one-year period expired on
September 10, 2010. Thus, Sneed’s Rule 60(b)(2) motion was untimely. AFFIRMED.

IN THE SUPREME COURT OF THE UNITED STATES
JUSTIN LASTER
Petitioner
CIVIL ACTION
APPEAL FILE NO. 20-12575-BB

v.
STATE OF GEORGIA,
GEORGIA STATE BOARD
OF WORKERS1 COMPENSATION,
GEORGIA DEPARTMENT OF
ADMINISTRATIVE SERVICES,
GEORGIA DEPARTMENT OF
CORRECTIONS
Respondents’

REASONS FOR GRANTING THE PETITION
Comes Now the Petitioner, Justin Laster, respectfully submit to the Supreme Court of the United
States my Petition for Writ of Certiorari in respect to Rule 10 Part 3 of the Supreme Court of the
United States Rules (a) a United States court of appeals has entered a decision in conflict with
the decision of another United States court of appeals on the same important matter; has decided
an important federal question in a way that conflicts with a decision by a state court of last resort;
or has so far departed from the accepted and usual course of judicial proceedings, or sanctioned
such a departure by a lower court, as to call for an exercise of this Court’s supervisory power;
and (c) a state court or a United States court of appeals has decided an important question of
federal law that has not been, but should be, settled by this Court, or has decided an important
federal question in a way that conflicts with relevant decisions of this Court. Mr. David J. Smith,
Clerk Of Court for the United States Court of Appeals Eleventh Circuit have made several false
statements in official governmental court documents to help the Defendants I am suing in this
Civil Lawsuit Action, the United States District Court Judge which made false statements in this
Civil Action as well, and Mr. David J. Smith, Clerk Of Court for the United States Court of
Appeals Eleventh Circuit attempt to intimidate me and pressure me illegally and unlawfully in
violation of 18 U.S. Code § 1001. Statements or entries generally, 5 U.S. Code § 3331. Oath of
office, 42 U.S. Code § 1983. Civil action for deprivation of rights, 18 U.S. Code § 242.
Deprivation of rights under color of law, and Amendment 14 of the United States Constitution,
which is criminal activity of which he has and is still engaging in in my Civil Lawsuit Action
with his Abusing of Power. I asked Mr. David J. Smith, Clerk Of Court for the United States
Court of Appeals Eleventh Circuit to send my Civil Lawsuit Action to the United States Supreme
Court in my first (1st) Notice of Appeal to the United States Court of Appeals Eleventh Circuit
on September 12, 2020 when Mr. David J. Smith, Clerk Of Court for the United States Court of
Appeals Eleventh Circuit made false statements on August 27 - August 28, 2020 stating, “I failed
to prosecute my Civil Action in a Timely Manner because I did not send my Appendix with my
Appellant Brief’ and therefore it was Dismissed, then Mr. David J. Smith, Clerk Of Court for the
United States Court of Appeals Eleventh Circuit eight (8) days later wrote a letter as he said
informing me of him Dismissing my Civil Lawsuit Action because I failed to prosecute my Civil

Lawsuit Action by sending my Appendix with my Appellant Brief, and thirteen (13) days later
Mr. David J. Smith, Clerk Of Court for the United States Court of Appeals Eleventh Circuit
finally took his letter informing me of my Dismissed Appeal to the United States Postal Service
so it could get sent to me informing me of what decision he had made “on his own”
unprecedented without any United States Court of Appeals Eleventh Circuit Judges making a
lawful, unbiased, impartial ruling based on the facts of the case. A Petition for Writ for Certiorari
should be Granted in this case because Mr. David J. Smith, Clerk Of Court for the United States
Court of Appeals Eleventh Circuit have placed the United States Court of Appeals Eleventh
Circuit and pushed the United States Court of Appeals Eleventh Circuit whom he works for in a
unlawful and unprecedented situation that the United States Court of Appeals Eleventh Circuit
has entered a decision in conflict with the decision of several other United States Court of
Appeals on the same important matter. In the United States Court of Appeals for the Federal
Circuit RICHARD SOWINSKI, Plaintiff-Appellant v. CALIFORNIA AIR RESOURCES
BOARD, Defendant-Appellee Case No. 2019-1558, Dr. Richard Sowinski filed a lawsuit on
November 24, 2015 in the California Superior Court in Orange County, against the California
Air Resources Board (“CARB”) and several individual and corporate defendants associated with
CARB. A defendant in the lawsuit filed a motion and the lawsuit was removed to the United
States District Court for the Central District of California. Pre-trial proceedings included the
defendants filing several motions to dismiss. After Dr. Richard Sowinski moved to file an
amended complaint, the parties filed a joint stipulation to withdraw the amended complaint and
postpone the hearing on the motions to dismiss. The joint stipulation included the statement that
the motions to dismiss were “potentially case dispositive.” Dr. Richard Sowinski did not file a
response to the motions to dismiss. After the period set in the local rules for such response, the
district court dismissed the complaint “pursuant to Central District of California Local Rule 7-12,
which provides that the failure to file a document within a deadline ‘may be deemed consent to
the granting or denial of the motion.'” Dist. Ct. Op. at *2. The dismissal was with prejudice and
without leave to amend. Mr. David J. Smith, Clerk Of Court for the United States Court of
Appeals Eleventh Circuit and the United States Court of Appeals Eleventh Circuit deviated or
has so far departed from the accepted and usual course of judicial proceedings from what a
normal and reasonable United States Court of Appeals conduct and ruling would be as shown by
the United States Court of Appeals for the Federal Circuit. In the United States Court of Appeals
For the Seventh Circuit Chicago, Illinois RICKEY J. HARRIS III, Plaiptiff-Appellant, v.
ANTHONY EMANUELE and MICHAEL ZETTING, Defendants-Appellees Case No. 19-3548,
Rickey J. Harris III filed a lawsuit in May 2018 under 42 United States Code § 1983 against
officers who had allegedly strip-searched him. After Harris filed this suit under 42 U.S.C. § 1983
in May 2018, the district court issued several orders. First, within the first four months, it twice
screened the complaint. See 28 U.S.C. § 1915A(a). In the two screening orders, the court warned
Harris that he must notify the court of any change of address and that failing to do so could result
in dismissal for failure to prosecute. In November, the court ordered the parties to complete
discovery in ninety days (by February 2019). The scheduling order reiterated that the plaintiff
must provide his current address or risk dismissal. The district court eventually dismissed the
case. Near the end of discovery, the defendants moved to extend it, stating that for three weeks
defense counsel had been unable to locate Harris to serve him with discovery. They explained
that mail sent to Harris’s address on file at the court was returned undeliverable, public databases
had yielded no new address, and Harris had not served any discovery with a return address. The
defendants also asked the court to order Harris to update his address, adding that if he failed to

do so, then it could dismiss the case for failure to prosecute. A few days later, the court
dismissed the case for failure to prosecute and comply with court orders. See FED. R. CIV. P.
41(b). It pointed out that it had previously ordered Harris to notify it of any change in his address
and warned him that it could dismiss his case if he failed to do so, yet Harris had nonetheless
failed to comply. The clerk mailed a copy of the dismissal order to Harris’s address on file, but it
was returned as undeliverable. ORDER This is an appeal from a district court’s discretionary
refusal to reopen a case. In 2018, Rickey Harris sued officers who had allegedly strip-searched
him. During discovery, counsel for the defendants tried unsuccessfully to locate Harris, who had
not updated his address, as the district court had three times ordered him to do or risk dismissal.
The court later dismissed Harris’s suit sua sponte for failure to prosecute and comply with those
orders. Seven months later, Harris unsuccessfully moved to vacate that judgment. He argued that
a fire at his home ten months earlier had prevented him from receiving mail there. But the district
court permissibly decided that Harris had not adequately explained his failure to update his
address after the fire, so we affirm. The United States Court of Appeals for the Seventh Circuit in
Chicago, Illinois ruled against Mr. Rickey J. Harris and in favor of the defendants because the
United States District Court gave Mr. Rickey J. Harris several chances, three (3) times to comply
with the district court orders to update his address if he moves and he did not and the defendants
attempted to locate Mr. Rickey J. Harris during discovery in his case and he did not respond, so
the district court dismissed his case due to failure to prosecute and comply with the court orders.
Mr. David J. Smith, Clerk Of Court for the United States Court of Appeals Eleventh Circuit and
the United States Court of Appeals Eleventh Circuit deviated or has so far departed from the
accepted and usual course of judicial proceedings from what a normal and reasonable United
States Court of Appeals conduct and ruling would be as shown by the United States Court of
Appeals For the Seventh Circuit. Mr. David J. Smith, Clerk Of Court for the United States Court
of Appeals Eleventh Circuit stated he dismissed my appeal for Failure to Prosecute 11th Cir. R.
42-1 Dismissal of Appeals, (b) Dismissal for Failure to Prosecute Except as otherwise provided
for briefs and appendices in civil appeals in 11th Cir. R. 42-2 and 42-3, when appellant fails to
file a brief or other required papers within the time permitted, or otherwise fails to comply with
the applicable rules, the clerk shall issue a notice to counsel, or to pro se appellant, that upon
expiration of 14 days from the date thereof the appeal will be dismissed for want of prosecution
if the default has not been remedied by filing the brief or other required papers and a motion to
file documents out of time. Within that 14-day notice period a party in default must seek leave of
the court, by appropriate motion, to file documents out of time or otherwise remedy the default.
Failure to timely file such motion will result in dismissal for want of prosecution, 11th Cir. R.
42-2 Dismissal in a Civil Appeal for Appellant’s Failure to File Brief or Appendix by Due Date,
(c) Dismissal Without Further Notice. When an appellant has failed to file the brief or appendix
by the due date as established by 11th Cir. R. 30-l(c) and 31-1 and set forth in the clerk’s notice,
or, if the due date has been extended by the court, within the time so extended, an appeal shall be
treated as dismissed for failure to prosecute on the first business day following the due date. The
clerk thereafter will enter an order dismissing the appeal and mail a copy of that order to counsel
and pro se parties. If an appellant is represented by appointed counsel, the clerk may refer the
matter to the Chief Judge for consideration of possible disciplinary action against counsel in lieu
of dismissal, and 11th Cir. R. 42-3 Dismissal in a Civil Appeal for Appellant’s Failure to Correct
a Deficiency in Briefs or Appendices Within 14 Days of Notice, (b) Notice to Correct a
Deficiency in Briefs or Appendices. If briefs or appendices do not comply with the rules
governing the form of briefs and appendices, the clerk will send counsel and pro se parties a

notice specifying the matters requiring correction. A complete corrected set of replacement briefs
or appendices must be filed in the office of the clerk within 14 days of the date of the clerk’s
notice, (c) Dismissal Without Further Notice. When an appellant has failed to correct the brief or
appendix within 14 days of the clerk’s notice, or, if the due date has been extended by the court,
within the time so extended, an appeal shall be treated as dismissed for failure to prosecute on
the first business day following the due date. The clerk thereafter will enter an order dismissing
the appeal and mail a copy of that order to counsel and pro se parties. If an appellant is
represented by appointed counsel, the clerk may refer the matter to the Chief Judge for
consideration of possible disciplinary action against counsel in lieu of dismissal, (e) Motion to
Set Aside Dismissal and Remedy Default. An appeal dismissed pursuant to this rule may be
reinstated only upon the filing of a motion to set aside the dismissal and remedy the default
showing extraordinary circumstances, accompanied by the required corrected brief or appendix.
Such a motion showing extraordinary circumstances, accompanied by the required corrected
brief or appendix, must be filed within 14 days of the date the clerk enters the order dismissing
the appeal. The timely filing of such a motion, accompanied by the required corrected brief or
appendix, and a showing of extraordinary circumstances, is the exclusive method of seeking to
set aside a dismissal entered pursuant to this rule. An untimely filed motion to set aside dismissal
and remedy default must be denied unless the motion demonstrates extraordinary circumstances
justifying the delay in filing the motion, and no further filings shall be accepted by the clerk in
that dismissed appeal. The time to file a responsive brief runs from the date the court’s order
granting a motion to set aside dismissal and remedy default is entered on the docket. Mr. David
J. Smith, Clerk Of Court for the United States Court of Appeals Eleventh Circuit sent me a letter
from the United States Court of Appeals dated September 21, 2020 stating, “Please take notice
that the following motion has been filed: MOTION to reinstate appealfiled by Appellant Justin
Laster. Opposition to Motion is Unknown [9193254-1] Please send in your appendix, so that
your motion can be acted upon. Your motion has been filed but will not be considered or acted
upon by the Court pending receipt of the appendix. If you fail to file the appendix within
FOURTEEN (14) DAYS from the date of this letter, the Court will determine whether the
motion should be stricken for failure to comply with the Rules. This may result in your motion
being returned to you without Court action. Sincerely, DAVID J. SMITH, Clerk of Court. Mr.
David J. Smith, Clerk Of Court for the United States Court of Appeals Eleventh Circuit on
August 5, 2020 sent out a Memorandum stating, “Enclosed are proposed amendments to the
Rules of the United States Court of Appeals for the Eleventh Circuit. Text to be deleted is linedthrough. Comments on the proposed amendments may be submitted in writing to me at the above
address, or electronically at http://www.call.uscourts.gov/rules/proposed-revisions, by 5:00 PM
Eastern Time on September 4, 2020. David J. Smith” when I sent my Appellant Brief to the
United States Court of Appeals Eleventh Circuit on August 17, 2020 before this Proposed Rule
Changes would go into effect and he attempted to demand that I was subject to his Proposed
Rule Changes in the United States Court of Appeals Eleventh Circuit before September 4, 2020.
This egregious conduct and behavior by a Clerk of Court and United States Court of Appeals, the
Eleventh Circuit has so far departed from the accepted and usual course of judicial proceedings
and therefore needs the Supreme Court of the United States to correct their abusive and deviation
from the normal and accepted usual course of how judicial proceedings are conducted in a court
of law. I sent a second (2nd) Notice of Appeal of the United States Court of Appeals Eleventh
Circuit Clerk David J. Smith for Entering a Clerk’s Dismissal for Failure To Prosecute my
Appeal and to Timely File Or Correct My Brief Or Appendix to the United State Supreme Court

for review of the United States Court of Appeals Eleventh Circuit Clerk Of Court Entry of
Dismissal actions of Dismissal of my Appeal and not legally explaining in detail and with
applicable law why he unlawfully dismissed my Appeal on October 22, 2020. The United States
Court of Appeals Eleventh Circuit Clerk of Court David J. Smith states he Dismissed my Appeal
on August 27, 2020, but he dated a September 4, 2020 letter of Notice that he and the United
States Court of Appeals Eleventh Circuit Dismissed my Appeal, eight (8) days and which the
letter was postmarked and received by the United States Postal Service September 9, 2020,
thirteen (13) days which means September 9, 2020 is the date the United States Court of Appeals
Eleventh Circuit Clerk Of Court had the letter delivered and dropped off at the United States
Postal Service, which was unlawfully, intentional, and deliberate to assure that I had less time to
Appeal his Unlawful Dismissal of my Appeal. This egregious conduct and behavior by a Clerk
of Court and United States Court of Appeals, the Eleventh Circuit has so far departed from the
accepted and usual course of judicial proceedings and therefore needs the Supreme Court of the
United States to correct their abusive and deviation from the normal and accepted usual course of
how judicial proceedings are conducted in a court of law. There are some disputable facts and
laws that need to be reviewed and decided by the United States Supreme Court by the United
States Court of Appeals Eleventh Circuit Clerk Of Court David J. Smith interpretation of the
United States Federal Law. The United States Court of Appeals has decided an important
question of federal law that has not been, but should be, settled by this Court, or has decided an
important federal question in a way that conflicts with relevant decisions of this Court and that
question is Should a Court Official compensated by the United States Government use and abuse
the power of their office and position to divert, disregard, and derelict the law and their sworn
duties they took by their oath of office to do their job fair, impartial, and unbiased pursuant to the
Constitution of the United States and the United States Code. Mr. David J. Smith have
deliberately been partial to the Defendants in this Civil Lawsuit Action, the United States District
Court Judge that presided over my Civil Lawsuit action in the United States District Court, the
lower court, prejudice, and bias against me and he somehow still took it upon himself to still
make decisions over my Civil Lawsuit Action and did not recuse himself after his deliberate
violations in official court documents of United States Code in accordance with Federal Law. I
have evidence I sent my Appendix the first (1st) time on August 17, 2020 in and with my
Appellant Brief of which I tracked with receipt my Appellant Brief in the United States Mail to
the United States Court of Appeals Eleventh Circuit of which Mr. David J. Smith made false
statements saying I did not sent and I failed to send my Appendix with my Appellant Brief to
prosecute my Appeal. Mr. David J. Smith he failed to send my Appeal of his decision to the
United States Supreme Court on September 12, 2020 as I asked him, but instead filed a Motion
to Reinstate my Appeal stating “Opposition to Motion is Unknown 9193254-1” and states further
“Please send in your Appendix so that your Motion can be acted upon. Your Motion has been
filed but will not be considered or acted upon by the Court pending receipt of the Appendix. If
you fail to file the Appendix within FOURTEEN (14) DAYS from the date of this letter, the
Court will determine whether the Motion should be Stricken for Failure to Comply with the
Rules. This may result in your Motion being Returned to you without Court Action”, this letter
you sent me dated September 21, 2020. Mr. David J. Smith he made false statements on August
27, August 28, September 4, September 21, and October 22, 2020 stating “The Court is in receipt
of your Motion to Reinstate. However, no action will be taken because Appellant failed to
submit the required Appendix. If Appellant chooses to submit the Appendix, a Motion to
Reinstate will also be Required”. I sent my second (2nd) Appendix on October 1, 2020 with

Exhibits and David J. Smith made false statements again saying I failed to send my required
Appendix, which I tracked with receipt my second (2nd) Appendix I sent to the United States
Court of Appeals Eleventh Circuit in the United States Mail.
In the United States Supreme Court case of Bearden v. Georgia, 461 U.S. 660 (1983), Tunnel
Hill, Georgia resident, Danny Bearden Petitioner pleaded guilty in a Georgia trial court to
burglary and theft by receiving stolen property, but the court, pursuant to the Georgia First
Offender's Act, did not enter a judgment of guilt and sentenced petitioner to probation on the
condition that he pay a $500 fine and $250 in restitution, with $100 payable that day, $100 the
next day, and the $550 balance within four months. Petitioner borrowed money and paid the first
$200, but about a month later he was laid off from his job, and, despite repeated efforts, was
unable to find other work. Shortly before the $550 balance became due, he notified the probation
office that his payment was going to be late. Thereafter, the State filed a petition to revoke
petitioner's probation because he had not paid the balance, and the trial court, after a hearing,
revoked probation, entered a conviction, and sentenced petitioner to prison. The record of the
hearing disclosed that petitioner had been unable to find employment and had no assets or
income. The Georgia Court of Appeals rejected petitioner's claim that imprisoning him for
inability to pay the fine and make restitution violated the Equal Protection Clause of the
Fourteenth Amendment. The Georgia Supreme Court denied review. Held: A sentencing court
cannot properly revoke a defendant's probation for failure to pay a fine and make restitution,
absent evidence and findings that he was somehow responsible for the failure or that alternative
forms of punishment were inadequate to meet the State's interest in punishment and deterrence,
and hence here the trial court erred in automatically revoking petitioner's probation and turning
the fine into a prison sentence without making such a determination. Pp. 664-674. (a) If a State
determines a fine or restitution to be the appropriate and adequate penalty for the crime, it may
not thereafter imprison a person solely because he lacked the resources to pay it. Williams v.
Illinois, 399 U.S. 235 ; Tate v. Short, 401 U.S. 395 . If the probationer has willfully refused to
pay the fine or restitution when he has the resources to pay or has failed to make sufficient bona
fide efforts to seek employment or borrow money to pay, the State is justified in using
imprisonment as a sanction to enforce collection. But if the probationer has made all reasonable
bona fide efforts to pay the fine and yet cannot do so through no fault of his own, it is
fundamentally unfair to revoke probation automatically without considering whether adequate
alternative methods of punishing [461 U.S. 660, 661] the probationer are available to meet the
State's interest in punishment and deterrence. Pp. 664-669. (b) The State may not use as the sole
justification for imprisonment the poverty or inability of the probationer to pay the fine and to
make restitution if he has demonstrated sufficient bona fide efforts to do so. Pp. 669-672. (c)
Only if alternative measures of punishment are not adequate to meet the State's interests in
punishment and deterrence may the court imprison a probationer who has made sufficient bona
fide efforts to pay the fine. To do otherwise would deprive the probationer of his conditional
freedom simply because, through no fault of his own, he cannot pay. Such a deprivation would
be contrary to the fundamental fairness required by the Fourteenth Amendment. Pp. 672-673.
161 Ga. App. 640, 288 S. E. 2d 662, reversed and remanded. The United States Supreme Court
had to reverse a ruling all of the State of Georgia courts ruled in sync that Bearden, the
probationer refused to pay his fines the court imposed on him, but instead he did not have the
funds to pay the court imposed fines and the State of Georgia courts jailed him, violating his
rights to a fair sentencing remedy instead of jailing Mr. Bearden because he could not afford to

pay them.
United States District Court Judge Leslie A. Gardner stated that just because a federal statute has
been violated 18 United States Code § 246 Deprivation of Relief Benefits, 18 United States Code
§ 245 Federally Protected Activities, 18 United States Code § 241 Conspiracy Against Rights
and a person was harmed does not automatically give rise to a private cause of action in favor of
that person, U.S. Supreme Court case Cannon v. University of Chicago, 441 U.S. 677 (1979)
United States District Court Judge Leslie A. Gardner did not state the facts of this civil action
before the United States Supreme Court, the United States Supreme Court ruled Held: Petitioner
may maintain her lawsuit, despite the absence of any express authorization for it in Title IX. Pp.
441 U. S. 688-717. Pp. 441 U. S. 710-716. (a) Before concluding that Congress intended to make
a remedy available to a special class of litigants, a court must carefully analyze the following
four factors that Cort v. Ash, 422 U. S. 66, identifies as indicative of such an intent: (1) whether
the statute was enacted for the benefit of a special class of which the plaintiff is a member, (2)
whether there is any indication of legislative intent to create a private remedy, (3) whether
implication of such a remedy is consistent with the underlying purposes of the legislative
scheme, and (4) whether implying a federal remedy is inappropriate because the subject matter
involves an area basically of concern to the States. P. 441 U. S. 688. (b) The first factor is
satisfied here since Title IX explicitly confers a benefit on persons discriminated against on the
basis of sex, and petitioner is clearly a member of that class for whose special benefit the statute
was enacted. Pp. 441 U. S. 689-694. (c) As to the second factor, the legislative history of Title IX
rather plainly indicates that Congress intended to create a private cause of action. Title IX was
patterned after Title VI of the Civil Rights Act of 1964, and the drafters of Title IX explicitly
assumed that it would be interpreted and enforced in the same manner as Title VI, which had
already been construed by lower federal courts as creating a private remedy when Title IX was
enacted. Pp. 441 U. S. 694-703. (d) The third factor is satisfied, since implication of a private
remedy will not frustrate the underlying purposes of the legislative scheme but, instead, will
assist in achieving the statutory purpose of providing individual citizens effective protection
against discriminatory practices. Pp. 441 U. S. 703-708. (e) As to the fourth factor, since the
Civil War, the Federal Government and the federal courts have been the primary and powerful
reliances in protecting citizens against invidious discrimination of any sort, including that on the
basis of sex. Moreover, it is the expenditure of federal funds that provides the justification for
this particular statutory prohibition. Pp. 441 U. S. 708-709. (f) Respondents' principal argument
against implying a cause of action under Title IX — that it is unwise to subject admissions
decisions of universities to judicial scrutiny at the behest of disappointed applicants on a case-bycase basis because this kind of litigation is burdensome, and inevitably will have an adverse
effect on the independence of members of university committees — is without merit. The
congressional majorities that passed Title VI of the Civil Rights Act of 1964 and Title IX
rejected the same argument when advanced by the congressional opponents of the two statutes,
and there is nothing to demonstrate that private Title VI litigation has been so costly or
voluminous that either the academic community or the courts have been unduly burdened, or that
university administrators will be so concerned about the risk of litigation that they will fail to
discharge their important responsibilities in an independent and professional manner. Pp. 441 U.
S. 709-710. (g) Nor is there any merit to respondents' arguments, starting from the premise that
Title IX and Title VI should receive the same construction, that a comparison of Title VI with
other titles of the Civil Rights Act of 1964 demonstrates that Congress created express private

remedies whenever it found them desirable, and that certain excerpts from the legislative history
of Title VI foreclose the implication of a private remedy. The fact that other provisions of a
complex statutory scheme create express remedies has not been accepted as a sufficient reason,
by itself, for refusing to imply an otherwise appropriate remedy under a separate section, and
none of the excerpts from the legislative history cited by respondents evidences any hostility
toward an implied private remedy for terminating the offending discrimination. 559 F.2d 1063,
reversed and remanded.
United States District Court Judge Leslie A. Gardner stated that in regards to HIPAA claims, “It
is well established that HIPAA provides no private right of action”, that the United States
Federal courts “decline to hold that HIPAA creates a private cause of action”, and “finding no
evidence that Congress intended to create a private right of action under HIPAA” and Your
Honor stated Sneed v. Pan American Hospital 370 F. App’x 47, 50 (11th Cir. 2010) and Means
v. Indep. Life & Acc. Ins. Co. 963 F. Supp. 1131, 1135 (M.D. Ala. 1997). In the United States
Court of Appeals for the Eleventh Circuit Timothy Sneed v. Pan American Hospital, the United
States Court of Appeals ruled Timothy Sneed pro se appeals the district court’s order denying as
untimely his Federal Rule of Civil Procedure 60(b) motion to vacate or set aside the district
court’s order dismissing Sneed’s 42 U.S.C. § 1983 complaint. After review, we affirm. The
district court denied the Rule 60(b) motion as untimely because it was not filed within one year
of the September 10, 2009 dismissal order. Sneed filed this appeal. II. DISCUSSION Rule 60(b)
permits a district court to “relieve a party or its legal representative from a final judgment, order,
or proceeding for,” among other things, “newly discovered evidence that, with reasonable
diligence, could not have been discovered in time to move for a new trial under Rule 59(b).” Fed.
R. Civ. P. 60(b)(2). A Rule 60(b)(2) motion is an extraordinary motion, and “the requirements of
the rule must be strictly met.” Toole v. Baxter Healthcare Corp., 235 F.3d 1307, 1316 (11th Cir.
2000). A Rule 60(b)(2) motion must be filed “no more than a year after the entry of the judgment
or order or the date of the proceeding.” Fed. R. Civ. P. 60(c)(1). Here, the district court did not
abuse its discretion when it denied Sneed’s Rule 60(b)(2) motion. The district court’s corrected
dismissal order was entered on September 10, 2009. Sneed did not file his Rule 60(b)(2) motion
until October 27, 2010, more than one year later. Sneed contends that he did not receive a copy
of the September 10, 2009 dismissal order until October 30, 2009 because he was being
transferred to a different prison facility. However, the one-year time period for filing Rule
60(b)(2) motions runs from the entry of the September 10, 2009 judgment or order Sneed’s
motion seeks to set aside, not from the time the party receives actual notice of the judgment or
order. See Fed. R. Civ. P. 60(c)(1). And, Sneed admits he received the order on October 20,
2009, which was well before the one-year period expired on September 10, 2010. Thus, Sneed’s
Rule 60(b)(2) motion was untimely. AFFIRMED.
In the United States District Court for the Middle District of Alabama, M.P. Means, et al. v. The
Independent Life and Accident Insurance Co., et al., the United States District Court ruled This
cause is before the court on a Motion to Remand, filed by the Plaintiffs, M.P. and Mattie Means
("the Plaintiffs") on April 7, 1997. The Plaintiffs originally filed state law claims for fraud,
breach of fiduciary duty, and outrage in the Circuit Court of Lowndes County. Independent Life
and Accident Insurance Company and Eric Anderson ("the Defendants"), subsequently filed a
Notice of Removal on April 2, 1997, stating that this court had subject matter jurisdiction
because the Plaintiffs' Complaint presented claims arising under federal law. For reasons to be

discussed, the Motion to Remand is due to be GRANTED. Removal of a case to federal court is
only proper if the case originally could have been brought in federal court. See 28 U.S.C. §
1441(a). In this case, the Defendants argue that removal was proper because the *1133 court has
federal question jurisdiction. Federal question jurisdiction requires that the action arise under the
Constitution, laws, or treaties of the United States. See 28 U.S.C. § 1331. In deciding whether a
federal question exists, the court must apply the well-pleaded complaint rule whereby the court
looks to the face of the complaint, rather than to any defenses asserted by the defendant. See
Caterpillar, Inc. v. Williams, 482 U.S. 386, 392, 107 S. Ct. 2425, 2429, 96 L. Ed. 2d 318 (1987).
Consequently, the general rule is that a case may not be removed to federal court on the basis of
a federal defense, including the defense of preemption. See Caterpillar, 482 U.S. at 393, 107 S.
Ct. at 2430. There are, however, exceptions to the well-pleaded complaint rule. One exception is
known as the "complete preemption" doctrine. Id. Where the removal petition demonstrates that
the plaintiffs claims, although couched in the language of state law claims, are federal claims in
substance, the preemptive force of federal law provides the basis for removal jurisdiction. See
Avco Corp. v. Aero Lodge No. 735, 390 U.S. 557, 88 S. Ct. 1235, 20 L. Ed. 2d 126 (1968). This
exception is recognized in the rare instance that Congress so "completely pre-empts a particular
area that any civil complaint... is necessarily federal in character." Metropolitan Life Ins. Co. v.
Taylor, 481 U.S. 58, 64, 107 S. Ct. 1542, 1546, 95 L. Ed. 2d 55 (1987). The inquiry for complete
preemption is jurisdictional in nature and focuses on whether Congress intended to make the
plaintiffs cause of action federal and removable despite the fact that the plaintiffs complaint only
pleads state law claims. Whitman v. Raley's Inc., 886 F.2d 1177, 1181 (9th Cir.1989). A second
exception to the well-pleaded complaint rule is that a plaintiff cannot avoid federal jurisdiction
by "omitting to plead necessary federal questions in a complaint." Franchise Tax Board v.
Construction Laborers Vacation Trust, 463 U.S. 1, 22, 103 S. Ct. 2841, 2853, 77 L. Ed. 2d 420
(1983) (citations omitted). In Franchise Tax Board, the Supreme Court stated that although a
plaintiffs cause of action is created by state law, the "case might still 'arise under1 the laws of the
United States if a well-pleaded complaint established that its right to relief under state law
requires resolution of a substantial question of federal law in dispute between the parties." Id. at
13, 103 S. Ct. at 2848. In other words, "some substantial, disputed question of federal law is a
necessary element of one of the well-pleaded state claims." Id. 1. Complete Preemption The
Defendants have argued that the Plaintiffs' claims are completely preempted under 42 U.S.C. §
1395ss as amended by the Health Insurance Portability and Accountability Act of 1996
("HIPAA"). The Defendants point specifically to those portions of the Plaintiffs' Complaint in
which they refer to Medicare. For example, the Plaintiffs stated that the "defendants concealed
from plaintiffs the value of the insurance they allegedly had. When plaintiffs became eligible for
Medicare at the age of 65, the vast majority of the benefits under this policy were covered by
Medicare." Complaint, 12. Three factors have been identified as critical to a finding of
"complete preemption." First, the "touchstone of the federal district court's removal jurisdiction
is ... the intent of Congress." Metropolitan, 481 U.S. at 66, 107 S. Ct. at 1548. Second, it is not
sufficient that the federal law preempt the state law claim; the federal law must also "displace"
the state law claim with a cause of action. Id. at 60, 107 S. Ct. at 1544-45. Third, the
jurisdictional and enforcement provisions of ERISA and the LMRA must have a close parallel in
the federal law at issue. Id. at 65, 107 S. Ct. at 1547; see also Monday v. Coast to Coast Wireless
Cable, No. CV-96-A-1321-N, CV-96-A-1539-N, CV-96-A-1720-N, CV-96-A-1722-N, CV-96A-1723-n, CV-96-A-1725-N, 1997 WL 114874 (M.D. Ala. Feb. 19, 1997).[1] *1134 The
Defendants have cited a specific provision of the HIPAA and have argued that this provision

indicates Congress' intent to completely preempt the Plaintiffs' claims. Under the HEPAA A State
may not declare or specify, in statute, regulation, or otherwise, that a health insurance policy
(other than a Medicare supplemental policy) or rider to an insurance contract which is not a
health insurance policy, that is described in clause (iv), (v), (vi) (III) and that is sold, issued or
renewed to an individual entitled to benefits under part A or enrolled under part B "duplicates"
health benefits under this sub-chapter or under a Medicare supplemental policy.
42 U.S.C. § 1395ss(d) (3) (A) (viii) (II) (199). The Defendants state that this provision expressly
preempts state law claims that seek to declare a health insurance policy to be duplicative and,
therefore, indicates Congress' intent to completely preempt. The Defendants also argue that by
enacting the HIPAA, Congress indicated its intent to provide federal control of health insurance
fraud. The Defendants' argument, therefore, apparently is that even if the Plaintiffs do not seek
relief under the HIPAA, the relief that they seek was intended to be precluded by Congress
because it is a state, rather than a federal, attempt to regulate health insurance fraud.
By this overwhelming evidence I have provided above I respectfully asked and move the
Supreme Court of the United States to Grant my Petition for Writ of Certiorari on the grounds
that Rule 10 Part 3 of the Supreme Court of the United States Rules (a) a United States court of
appeals has entered a decision in conflict with the decision of another United States court of
appeals on the same important matter, has so far departed from the accepted and usual course of
judicial proceedings and (c) a state court or a United States court of appeals has decided an
important question of federal law that has not been, but should be, settled by this Court, or has
decided an important federal question in a way that conflicts with relevant decisions of this
Court.

Respectfully submitted,

Austin Laster
This 8th day of December, 2020.

IN THE SUPREME COURT OF THE UNITED STATES
jus™ LASTER

Petitioner
v.

CIVIL ACTION
APPEAL FILE NO. 20-12575-BB

STATE OF GEORGIA,
GEORGIA STATE BOARD
OF WORKERS’ COMPENSATION,
GEORGIA DEPARTMENT OF
ADMINISTRATIVE SERVICES,
GEORGIA DEPARTMENT OF
CORRECTIONS
Respondents’
CONCLUSION
By this overwhelming evidence I have provided above I respectfully asked and move the
Supreme Court of the United States to Grant my Petition for Writ of Certiorari on the grounds
that Rule 10 Part 3 of the Supreme Court of the United States Rules (a) a United States court of
appeals has entered a decision in conflict with the decision of another United States court of
appeals on the same important matter, has so far departed from the accepted and usual course of
judicial proceedings and (c) a state court or a United States court of appeals has decided an
important question of federal law that has not been, but should be, settled by this Court, or has
decided an important federal question in a way that conflicts with relevant decisions of this
Court.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

